NO. _____________
IN THE SUPREME COURT OF THE UNITED STATES

CHARLES IVAN BRANHAM,
PETITIONER
V.

STATE OF MONTANA; PATRICK MCTIGHE,
RESPONDENTS,
AND

JIM SALMONSEN,
RESPONDENT.

CERTIFICATE OF SERVICE

I hereby certify and declare that true and exact copies of the Petition
for Writ of Certiorari to the United States Court of Appeals of the Ninth
Circuit and Appendices and Motion for Leave to Proceed In Forma Pauperis
were filed electronically with the Supreme Court and were mailed, first-class
postage prepaid, this 23rd day of September, 2021, to all parties required to be
served as follows:
//

SCOTT S. HARRIS, CLERK
United States Supreme Court
One First Street N.E.
Washington, D.C. 20543
AUSTIN KNUDSEN
Montana Attorney General
MARDELL PLOYHAR
Assistant Attorney General
215 North Sanders
P.O. Box 201401
Helena MT 59620-1401
DATED this 23rd day of September, 2021.
RESPECTFULLY SUBMITTED:

By: /s/ Palmer A. Hoovestal
Palmer Hoovestal
Attorney for Petitioner
CHARLES IVAN BRANHAM

